/)/'
Jf) 1-

UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON , D, C, 20580

Division of

Marketing Practices

October 3, 1994

Chan Tysor ,

President

Celestis, Inc,
3731 Purdue

Houston ,

TX 77005

Dear Mr. Tysor:
Your letter to attorney Mary Feinstein of September 19, 1994
requests an opinion as to whether or not the Funeral Rule, 16
R. Part 453 , would be applicable to the business activities
of Celestis , Inc. Ms. Feinstein and I are staff attorneys
assigned to Funeral Rule enforcement. In your letter , you state
that Celestis will offer the service of launching human cremains
Celestis will have no contact with deceased human
bodies and will not offer cremation services. A person s local
funeral service provider would cremate the body and send the
cremains to Celestis, which would reduce all or a portion of the
cremains through its reduction process and then encapsulate the
cremains in an individual capsule and launch them into space.

into space.

The Funeral Rule only applies to "funeral providers, " which
the Rule defines as those who sell or offer to sell both funeral
goods and funeral services to the public. "Funeral goods " are
those sold or offered directly to the public for use in
connection with funeral services. and "funeral services" are any
services which may be used to: (1) care for and prepare deceased
human bodies for burial, cremation or other final disposition;
and (2) arrange , supervise or conduct the funeral ceremony or the
final disposition of deceased human bodies. 16 C. R. S 453.
A copy of the Funeral Rule is enclosed for your future reference.

Based on the information provided in your letter and the
definitions cited above, the Funeral Rule does not apply to the
services to be offered by Celestis, Inc. Please be advised that
the views expressed in this letter are those of the FTC staff.
They have not been reviewed, approved, or adopted by the
Commission, and they are not binding upon the Commission.
However , they do reflect the opinions of those staff members
charged with enforcement of the Funeral Rule.

Very; truly youq:: ,.

g;l/r14( U /?! 11/r/
Tomas A. Cohn

Attorney
Enclosure

